United States Department of Justice
U.S. Attorney, District of New Jersey
970 Broad Street, Seventh Floor
Newark, New Jersey 07102
Christopher J. Christie, U.S. Attorney
More Information? Call the Assistant U.S. Attorney or other contact listed below to see if more
information is available.
News on the Internet: News Releases and related documents are posted at our website, along
with links to our archived releases for other years. Go to: www.usdoj.gov/usao/nj/publicaffairs
Assistant U.S. Attorney:
fing0803.rel
Karl H. Buch
FOR IMMEDIATE RELEASE
973-645-2779
August 3, 2007
Former Wall Street Executive Sentenced to 24 Months
In Prison; Pays $11 Million in Restitution
Public Affairs Office
973-645-2888
Michael Drewniak, PAO
Breaking News: http://www.usdoj.gov/usao/nj/publicaffairs
NEWARK, N.J.  A former Wall Street executive and investment banker was sentenced
to 24 months in federal prison today for conspiring to commit securities fraud in
connection with initial public offerings involving mutual banks in New Jersey,
Connecticut and across the country, U.S. Attorney Christopher J. Christie announced.
U.S. District Judge Peter G. Sheridan also order Bert Fingerhut to pay a $75,000 fine and
serve 4 months of home confinement as part of his three-year term of supervised release,
which is to be served upon the completion of his prison term. Yesterday, Fingerhut, 63,
of Aspen, Colo., and Palo Alto, Calif., paid $11 million in restitution he had agreed to
forfeit to the government under the terms of their plea agreement.
Fingerhut, a former member of the Executive Committee and Director of Research at
New York-based Oppenheimer & Company, Inc., pleaded guilty before Judge Sheridan
on May 17, 2007, to one count of conspiracy to commit securities fraud.
At his plea hearing, Fingerhut admitted that he organized a complex scheme to
circumvent applicable federal and state banking regulations that require mutual banks to
apportion shares issued in IPOs to depositors, restrict the maximum number of shares
offered to such depositors, and prevent depositors from transferring their shares to other
depositors.
Also on May 17, Robert Danetz, a retired New York City school teacher and childhood
friend of Fingerhut, pleaded guilty to one count of conspiracy to commit securities fraud.
Danetz admitted that he acted as a nominee in establishing accounts at banks where
depositors were defrauded. Danetz admitted that he traveled around the country opening
up accounts in his and Fingerhuts name, using Fingerhuts money.
A mutual bank is a bank owned by depositors. The depositors are entitled to have the
opportunity to buy shares in a bank when it converts to a publicly traded company. By
secretly and fraudulently amassing shares to which he was not entitled and selling them,
Fingerhut and his co-conspirators defrauded eligible depositors and the banks of more
than $12 million.
Fingerhut left Oppenheimer in the early 1980s. The fraud scheme began after his
departure from the company.
Fingerhut admitted that beginning in December 1995 and continuing until February 2007,
he implemented a scheme to defraud various mutual savings banks, including, Provident
Bank and New Haven Savings Bank, headquartered in Jersey City, and New Haven,
Conn., respectively.
Fingerhut admitted that he directed Danetz and others to open depository accounts at, among other banks, Provident and New Haven Savings that he identified as likely to offer
its depositors shares in IPOs. Upon announcement by Provident and New Haven Savings
that they were offering shares to eligible depositors, Fingerhut directed Danetz to
complete stock purchase order forms that falsely represented that Danetz was purchasing
the shares for his own account, when, in reality, he was purchasing the shares with
Fingerhuts money for Fingerhuts benefit.
Fingerhut further admitted that he directed Danetz to either transfer the fraudulently
obtained shares to him using Ameritrade accounts, or sell the shares on the open market
and wire the proceeds him.
Danetz, 62, of Teaneck, is scheduled to be sentenced on for Sept. 11. Under the terms of
his plea agreement, Danetz agreed to forfeit $800,000 to the government, representing the
proceeds of his illegal activities.
Christie credited Special Agents of the Internal Revenue Service, the Federal Deposit
Insurance Corporation, the United States Postal Inspection Service, and the Federal
Bureau of Investigation for their investigation of the securities fraud conspiracy case.
Christie also credited the Securities and Exchange Commission for their participation in
the investigation.
The case is being prosecuted by Assistant U.S. Attorney Karl H. Buch of the U.S.
Attorneys Securities and Health Care Fraud Unit.
-end-
Defense Counsel: Larry Mackey, Esq., Indianapolis, Indiana
Last Updated 8/7/06
contact the OIG